Case: 20-50316

Document: 00515672557

Page: 1

Date Filed: 12/14/2020

Unite!) States Court of Appeals
for tfje JftftJ) Circuit

United States Court of Appeals
Fifth Circuit

FILED

December 14, 2020

No. 20-50316

Lyle W. Cayce
Clerk

Jacob Earl Murphy,
Plaintiff—Appellant,
versus
Greg Abbott, Governor ofthe State of Texas-, Dale Wainwright,
Chairman, Texas Board of Criminal Justice-, Brian Collier, Executive
Director■, Texas Department of Criminal Justice-, Pamela Thielke,
Director, Texas Board ofPardons and Parole,
Defendants—Appellees.

Appeal from the United States District Court
for the Western District of Texas
USDC No. l:19-CV-667

Before Stewart, Graves, and Higginson, Circuit Judges.
Per Curiam:*
Jacob Earl Murphy, Texas prisoner # 01805040, moves for leave to
proceed in forma pauperis (IFP) from the denial of his postjudgment motion

* Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

Case: 20-50316

Document: 00515672557

Page: 2

Date Filed: 12/14/2020

No. 20-50316

challenging the dismissal of his 42 U.S.C. § 1983 complaint. He also moves
this court to seal the district court record.
By moving for leave to proceed IFP, Murphy is challenging the district
court’s certification that his appeal is not taken in good faith. See Baugh v.
Taylor, 117 F.3d 197, 202 (5th Cir. 1997). Our inquiry on appeal is restricted
to whether “the appeal involves legal points arguable on their merits (and
therefore not frivolous).” Howardv. King, 707 F.2d 215, 220 (5th Cir. 1983)
(internal quotation marks and citation omitted).
Murphy does not challenge the district court’s determination that his
claims for monetary damages were barred because he failed to overcome the
bar set forth in Heck v. Humphrey, 512 U.S. 477, 486-87 (1994). When an
appellant fails to identify any error in the district court’s analysis, it is the
same as if the appellant had not appealed that issue. Brinkmann v. Dallas Cty.
Deputy Sheriff Abner, 813 F.2d 744, 748 (5th Cir. 1987); see also Fed. R.
App. P. 28(a)(8). Murphy therefore has abandoned any challenge to the
district court’s denial of his postjudgment motion. See Mapes v. Bishop, 541
F.3d 582, 584 (5th Cir. 2008).
Accordingly, Murphy’s appeal does not present a nonfrivolous issue
and has not been brought in good faith. See Howard, 707 F.2d at 220. Thus,
the motion to proceed IFP is DENIED, and the appeal is DISMISSED as
frivolous. See Baugh, 117 F.3d at 202 n.24; see also 5th Cir. R. 42.2. His
motion to seal the record is DENIED.
The district court’s dismissal of Murphy’s § 1983 complaint and our
dismissal of this appeal as frivolous both count as strikes for purposes of 28
U.S.C. § 1915(g). See Coleman v. Tollefson, 135 S. Ct. 1759,1763-64 (2015);
Adepegba v. Hammons, 103 F.3d 383, 388 (5th Cir. 1996). Murphy is
WARNED that if he accumulates three strikes, he will not be able to proceed
IFP in any civil action or appeal filed while he is incarcerated or detained in

2

Case: 20-50316

Document: 00515672557

Page: 3

Date Filed: 12/14/2020

No. 20-50316

any facility unless he is under imminent danger of serious physical injury. See
28 U.S.C. § 1915(g).

3

Case l:19-cv-00667-LY Document 19 Filed 09/10/19 Page 1 of 3

FI t
i

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
AUSTIN DIVISION
JACOB EARL MURPHY,
PLAINTIFF,
v.
GREG ABBOTT, DALE
WAINRIGHT, BRIAN COLLIER,
PAMELA THIELKE, INC.
DEFENDANTS.

§
§
§
§
§
§
§
§
§
§

V«*«•»* I j'

2019 SEP 10 PM 12:26
CLERK to-: to-iRsC/r
WESTERN OIS'iRtCT^
BY—

m

CAUSE NO. l:19-CV-667-LY

ORDER ON REPORT AND RECOMMENDATION
Before the court is Plaintiff Jacob Earl Murphy’s complaint (Diet. #1).

Plaintiff

proceeding pro se, paid the full filing fee in this case. The case was referred to the United States
Magistrate Judge for findings and recommendations pursuant to 28 U.S.C. § 636(b) and Rule
1(f) of Appendix C of the Local Rules of the United States District Court for the Western District
of Texas, as amended. The magistrate filed his Report and Recommendation on July 8, 2019
(Dkt. #5), recommending that Murphy’s complaint be dismissed without prejudice as frivolous
pursuant to 28 U.S.C. § 1915(e) to refile once the conditions of Heck v. Humphrey, 512 U.S. 477
(1994) are met.
Pursuant to 28 U.S.C. § 636(b) and Rule 72(b) of the Federal Rules of Civil Procedure, a
party may serve and file specific, written objections to the proposed findings and
recommendations of the magistrate judge within 14 days after being served with a copy of the
Report and Recommendation, thereby securing a de novo review by the district court. A party’s
failure to timely file written objections to the proposed findings, conclusion, and
recommendations in a Report and Recommendation bars that party, except upon grounds of plain
error, from attacking on appeal the unobjected-to proposed factual findings and legal conclusions

Case l:19-cv-00667-LY Document 19 Filed 09/10/19 Page 2 of 3

accepted by the district court. See Douglass v. United States Auto Ass'n, 79 F.3d 1415, 1429
(5th Cir. 1996) (en banc).
Plaintiff Jacob Earl Murphy filed his Objection to Report and Recommendations on July
22, 2019 (Dkt. #11). Prior to filing his objection, Plaintiff filed a Motion to Withdraw Restraint
on Liberty on July 15, 2019 (Dkt. #10). In addition, Plaintiff filed a Motion for Summary
Judgment (Dkt. #13), a Motion to Proceed with Motion to Withdraw Restraint on Liberty (Dkt.
#14), and a Motion for Summary Judgment and Discovery (Dkt. #15). In light of Plaintiffs
objections, the court has undertaken a de novo review of the entire case file in this action and
finds that the Report and Recommendation filed by the magistrate judge is correct and should be
approved and accepted by this court for substantially the reasons stated therein.
IT IS THEREFORE ORDERED that Plaintiffs Objection to Report and
Recommendations (Dkt, #11) is OVERRULED.
IT IS FURTHER ORDERED that the Report and Recommendation of the United States
Magistrate Judge (Dkt. #5) is ACCEPTED AND ADOPTED by the court as stated herein.
IT IS FURTHER ORDERED that Plaintiff Jacob Early Murphy’s complaint is
DISMISSED WITHOUT PREJUDICE as frivolous pursuant to 28 U.S.C. § 1915(e).
IT IS FURTHER ORDERED that Plaintiff Jacob Earl Murphy’s pending motions are
DISMISSED.
Plaintiff Jacob Earl Murphy is HEREBY WARNED that filing or pursuing any further
frivolous lawsuits may result in (1) the imposition of court costs pursuant to Section 1915(f) of
Title 28 of the United States Code; (2) the imposition of significant monetary sanctions pursuant
to Rule 11 of the Federal Rules of Civil Procedure; (3) the imposition of an order barring
Plaintiff from filing any lawsuits in this court without first obtaining permission from a District

2

Case l:19-cv-00667-LY Document 19 Filed 09/10/19 Page 3 of 3

Judge of this Court or a Circuit Judge of the United States Court of Appeals for the Fifth Circuit;
or (4) the imposition of an order imposing some combination of these sanctions.
Plaintiff is FURTHER WARNED that for causes of action which accrue after June 8,
1995, the Texas Department of Criminal Justice, upon receipt of a final order of a state or federal
court that dismisses as frivolous or malicious a lawsuit brought by an inmate while the inmate
was in the custody of the Department or confined in county jail awaiting transfer to the
Department following conviction of a felony or revocation of community supervision, parole, or
mandatory supervision, is authorized to forfeit (1) 60 days of an inmate’s accrued good conduct
time, if the Department has previously received one final order; (2) 120 days of an inmate’s
accrued good conduct time, if the Department has previously received two final orders; or (3)
180 days of an inmate’s accrued good conduct time, if the Department has previously received
three or more final orders. See Tex. Gov’t Code Ann. § 498.0045.
Plaintiff is FURTHER WARNED that if he files more than three actions or appeals
while he is a prisoner which are dismissed as frivolous or malicious or for failure to state a claim
on which relief may be granted, he will be prohibited from bringing any other actions in forma
pauperis unless he is in imminent danger of serious physical injury. See 28 U.S.C. § 1915(g).
The court hereby directs the Clerk to e-mail a copy of this order and judgment to the
TDCJ-Office of the General Counsel and the keeper of the three-strikes list.
A Final Judgment shall be filed subsequently.
^ffifday of September, 2019.
SIGNED this

LEE YEAKEL /
'
UNIIjED STATES DISTRICT JUDGE

3

Case l:19-cv-00667-LY Document 5 Filed 07/08/19 Page 1 of 6

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
AUSTIN DIVISION
JACOB EARL MURPHY #01805040
V.

GREG ABBOTT, et al.

§
§
§
§
§

A-19-CA-667-LY

REPORT AND RECOMMENDATION
OF UNITED STATES MAGISTRATE JUDGE
TO:

THE HONORABLE LEE YEAKEL
UNITED STATES DISTRICT JUDGE
The undersigned submits this Report and Recommendation to the District Court pursuant to

28 U.S.C. §636(b) and Rule 1(f) of Appendix C of the Local Rules. Before the Court is Plaintiffs
original complaint. Plaintiff is proceeding pro se, and in forma pauperis.
STATEMENT OF THE CASE
At the time he filed his complaint pursuant to 42 U.S.C. § 1983, Plaintiff was confined in the
Telford Unit of the Texas Department of Criminal Justice - Correctional Institutions Division.
Plaintiff sues Governor Greg Abbott, Chairman of the Texas Board of Criminal Justice Dale
Wainwright, Executive Director of the Texas Department of Criminal Justice Brian Collier, and
Director of the Texas Department of Criminal Justice - Pardons and Paroles Division Pamela
Thielke. Plaintiff alleges the defendants “allowed [him] to persist injuriously under liberty restraint
after claim of right demand when notified.” Plaintiff indicates he has mailed to the defendants
notices for liberty to be granted, contract obligation notices, letters of favor for presentation, and
warrant affidavit notices. Plaintiff seeks $31,300,000,000 in damages and the “unrestrained free
body and liberty rights of [himself], and John Alfred Grimes.”1

Plaintiff has no standing to request the release of Grimes, who is not a party to this action.

Case l:19-cv-00667-LY Document 5 Filed 07/08/19 Page 2 of 6

DISCUSSION AND ANALYSIS
A.

Standard Under 28 U.S.C. § 1915(e)

An in forma pauperis proceeding may be dismissed sua sponte under 28 U.S.C. § 1915(e)
if the court determines the complaint is frivolous, malicious, fails to state a claim upon which relief
may be granted or seeks monetary relief against a defendant who is immune from suit. A dismissal
for frivolousness or maliciousness may occur at any time, before or after service of process and
before or after the defendant’s answer. Green v. McKaskle, 788 F.2d 1116, 1119 (5th Cir. 1986).
When reviewing a plaintiffs complaint, the court must construe plaintiffs allegations as
liberally as possible. Haines v. Kemer, 404 U.S. 519 (1972). However, the petitioner’s pro se status
does not offer him “an impenetrable shield, for one acting pro se has no license to harass others, clog
the judicial machinery with meritless litigation and abuse already overloaded court dockets.”
Farguson v. MBank Houston, N.A., 808 F.2d 358, 359 (5th Cir. 1986).
B.

Eleventh Amendment Immunity

Being sued in their official capacities for monetary damages, Defendants are immune from
suit under the Eleventh Amendment because such an action is the same as a suit against the
sovereign.

Pennhurst State School Hosp. v. Halderman, 465 U.S. 89 (1984). The Eleventh

Amendment generally divests federal courts ofjurisdiction to entertain suits directed against states.
Port Auth. Trans-Hudson v. Feeney, 495 U.S. 299,304 (1990). The Eleventh Amendment may not
be evaded by suing state agencies or state employees in their official capacity because such an
indirect pleading remains in essence a claim upon the state treasury. Green v. State Bar of Texas,
27 F.3d 1083,1087 (5th Cir. 1994).

2

Case l:19-cv-00667-LY Document 5 Filed 07/08/19 Page 3 of 6

C.

Heck v. Humphrey

Insofar as Plaintiff is seeking monetary damages against Defendants in their individual
capacities for his alleged illegal confinement, Plaintiffs claims must be dismissed pursuant to Heck
v. Humphrey, 512 U.S. 477, 486-87 (1994) and the Fifth Circuit’s application of Heck to state
prisoner § 1983 lawsuits in Boyd v. Biggers, 31 F.3d 279 (5th Cir. 1994). In Heck, the Supreme
Court held:
[I]n order to recover damages for allegedly unconstitutional conviction or
imprisonment, or for other harm caused by actions whose unlawfulness would render
a conviction or-sentence invalid, a § 1983 plaintiff must prove that the conviction or
sentence has been reversed on direct appeal, expunged by executive order, declared
invalid by a state tribunal authorized to make such determination, or called into
question by a federal court’s issuance of a writ of habeas corpus.
In this case Plaintiff does not allege that his conviction has been reversed, expunged, invalidated,
or called into question by a federal court’s issuance of writ of habeas corpus. Accordingly,
Plaintiffs claims for monetary damages regarding his alleged illegal confinement are currently
barred by Heck. Plaintiff should be allowed to refile only upon a showing that his conviction “has
been reversed on direct appeal, expunged by executive order, declared invalid by a state tribunal
authorized to make such determination, or called into question by a federal court’s issuance of a writ
of habeas corpus.” Heck, 512 U.S. at 486-87.
D.

Habeas Claims

To the extent Plaintiff seeks his immediate release, he must seek such relief in an application
for habeas corpus relief after he has exhausted his state court remedies. The exclusive remedy for
a prisoner who challenges the fact or duration of his confinement and seeks immediate or speedier
release is habeas corpus relief. Preiser v. Rodriguez, 411 U.S. 475, 488-490 (1973). The Court
should decline to construe this action as a request for habeas corpus relief. If Plaintiff did not intend
3

Case l:19-cv-00667-LY Document 5 Filed 07/08/19 Page 4 of 6

for this action to be an application for habeas corpus relief pursuant to 28 U.S.C. § 2254, any
subsequently filed applications could be subject to the restrictions on “second or successive”
motions. See e.g. Castro v. United States. 540 U.S. 375 (2003). Additionally, Plaintiff makes no
allegations suggesting he has exhausted his state court remedies.
RECOMMENDATION
It is therefore recommended that Plaintiff’s complaint be dismissed as frivolous pursuant to
28 U.S.C. § 1915(e). Specifically, Plaintiffs claims seeking monetary relief brought against the
defendants in their official capacities should be dismissed without prejudice for want ofjurisdiction,
Plaintiff s claims seeking monetary relief brought against the defendants in their individual
capacities should be dismissed without prejudice to refile once the conditions of Heck are met, and
Plaintiff s claims seeking his immediate release should be dismissed without prejudice to filing an
application for habeas corpus relief after he has exhausted his state court remedies.
It is further recommended that the Court include within its judgment a provision expressly
and specifically warning Plaintiff that filing or pursuing any further frivolous lawsuits may result
in (a) the imposition of court costs pursuant to Section 1915(f); (b) the imposition of significant
monetary sanctions pursuant to Fed. R. Civ. P. 11; (c) the imposition of an order barring Plaintiff
from filing any lawsuits in this Court without first obtaining the permission from a District Judge
of this Court or a Circuit Judge of the Fifth Circuit; or (d) the imposition of an order imposing some
combination of these sanctions.
It is further recommended that Plaintiff should be warned that for causes of action which
accrue after June 8, 1995, the Texas Department of Criminal Justice, upon receipt of a final order
of a state or federal court that dismisses as frivolous or malicious a lawsuit brought by an inmate

4

Case l:19-cv-00667-LY Document 5 Filed 07/08/19 Page 5 of 6

while the inmate was in the custody of the Department or confined in county jail awaiting transfer
to the Department following conviction of a felony or revocation of community supervision, parole,
or mandatory supervision, is authorized to forfeit (1) 60 days of an inmate’s accrued good conduct
time, if the Department has previously received one final order; (2) 120 days of an inmate’s accrued
good conduct time, if the Department has previously received two final orders; or (3) 180 days of
an inmate’s accrued good conduct time, if the Department has previously received three or more
final orders. See, TEX. GOV’T CODE ANN. § 498.0045 (Vernon 1998).
It is further recommended that Plaintiff be warned that if Plaintiff files more than three
actions or appeals while he is a prisoner which are dismissed as frivolous or malicious or for failure
to state a claim on which relief may be granted, then he will be prohibited from bringing any other
actions in forma pauperis unless he is in imminent danger of serious physical injury. See 28 U.S.C.
§ 1915(g).
In the event this Report and Recommendation is accepted, adopted or approved, it is
recommended that the Court direct the Clerk to e-mail a copy of its order and judgment to the TDCJ
- Office of the General Counsel and the keeper of the three-strikes list.
OBJECTIONS
Within 14 days after receipt of the magistrate judge’s report, any party may serve and file
written objections to the findings and recommendations of the magistrate judge. 28 U.S.C. § 636
(b)( 1 )(C). Failure to file written objections to the proposed findings and recommendations contained
within this report within 14 days after service shall bar an aggrieved party from de novo review by
the district court of the proposed findings and recommendations and from appellate review of factual
findings accepted or adopted by the district court except on grounds of plain error or manifest

5

Case l:19-cv-00667-LY Document 5 Filed 07/08/19 Page 6 of 6

injustice. Douglass v. United Servs. Auto. Assoc., 79 F.3d 1415 (5th Cir. 1996)(en banc); Thomas
v. Am, 474 U.S. 140, 148 (1985); Rodriguez v. Bowen, 857 F.2d 275, 276-277 (5th Cir. 1988).
SIGNED this 8th day of July, 2019.

ANDREW W. AUSTIN
UNITED STATES MAGISTRATE JUDGE

6

